                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



August 28, 2013

Robert B. Wells, WT 9B-K C

REQUEST FOR FINAL ACTION – AUDIT 2013-14966 – OVERSIGHT AUDIT OF
DISTRIBUTOR COMPLIANCE GROUP



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Melissa M.
Neusel, Audit Manager, at (865) 633-7357 or Rick C. Underwood, Director, Corporate
Governance and Finance Audits, at (423) 785-4824. We appreciate the courtesy and
cooperation received from your staff during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

MMN:BSC
Attachment
cc (Attachment):
      Cynthia L. Herron, OCP 7B-NST                         R. Windle Morgan, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K                      Emily J. Reynolds, OCP 6C-NST
      Joseph J. Hoagland, WT 7C-K                           Robert B. Wells, WT 9B-K
      William D. Johnson, WT 7B-K                           Andrea L. Williams, WT 9B-K
      Richard W. Moore, ET 4C-K                             OIG File No. 2013-14966




      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                                                   Audit Report
                                                                                      To the Vice President,
                                                                                      Compliance and Policy
                                                                                      Governance




OVERSIGHT AUDIT OF
DISTRIBUTOR
COMPLIANCE GROUP




Audit Team                                                                                                      Audit 2013-14966
Melissa M. Neusel                                                                                                August 28, 2013
Julie A. Poteet
Jennifer R. Torregiano
             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                Audit Report




ABBREVIATIONS
FY                         Fiscal Year
IIA                        Institute of Internal Auditors
OIG                        Office of the Inspector General
RRA                        Retail Regulatory Affairs
SVP                        Senior Vice President
TVA                        Tennessee Valley Authority




Audit 2013-14966

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS ......................................................................................................... 3
    POSITIVE ATTRIBUTES OF DISTRIBUTOR COMPLIANCE
    ASSESSMENTS ............................................................................................. 3

    AREAS NEEDING IMPROVEMENT ............................................................... 5

    SEGREGATION BETWEEN GROUPS IS ADEQUATE ................................ 10

RECOMMENDATIONS ................................................................................ 10


APPENDICES

A. OBJECTIVES, SCOPE, AND METHODOLOGY

B. MEMORANDUM DATED AUGUST 27, 2013, FROM ROBERT B. WELLS TO
   DAVID P. WHEELER




Audit 2013-14966

                                      TVA RESTRICTED INFORMATION
                   Audit 2013-14966 – Oversight Audit of
                      Distributor Compliance Group
                          EXECUTIVE SUMMARY

Why the OIG Did This Audit

  The Tennessee Valley Authority (TVA) established a Distributor
  Compliance department within the Compliance Office in the spring of 2011
  to perform assessments and assist TVA management and the TVA Board
  of Directors in determining whether distributor customers were in
  compliance with the TVA Wholesale Power Contract and other regulatory
  policy.

  We performed an oversight audit of Distributor Compliance assessments
  completed through December 31, 2012, to determine if (1) the
  assessments were adequately planned and performed to verify
  distributors’ compliance with key provisions of the Wholesale Power
  Contract, (2) the assessments were performed in accordance with the
  Distributor Compliance Charter and applicable policies, and (3) there was
  adequate segregation between the groups charged with developing,
  interpreting, and implementing TVA’s retail regulatory policy (Retail
  Regulatory Affairs) and assessing distributor compliance with TVA’s
  regulatory policies and procedures (Distributor Compliance).

What the OIG Found

  Our audit of the Distributor Compliance assessments issued through
  December 31, 2012, found several positive attributes in Distributor
  Compliance’s planning and performance of assessments but also noted
  areas where changes are needed to improve (1) planning and
  performance and (2) compliance with the Distributor Compliance Charter
  and other applicable professional standards and policies regarding the
  assessment reports. More specifically, we noted:

     Scope statements in reports did not always reflect the actual
      information that was reviewed in assessments.
     Documentation of sampling methodologies was inadequate.
     Sampling methodologies could be modified to provide more assurance
      assessment objectives are met.
     Some issues were not formally reported and tracked.
     Recommendations did not always help detect and/or prevent identified
      issues from recurring.
     Testing for misclassified residential accounts is not currently being
      performed.

                                                                              Page i

                       TVA RESTRICTED INFORMATION
                   Audit 2013-14966 – Oversight Audit of
                      Distributor Compliance Group
                          EXECUTIVE SUMMARY

     Currently, distributors are not made aware of all issues identified
      during assessments.

  Finally, we determined there is adequate segregation between Retail
  Regulatory Affairs and Distributor Compliance. However, certain work that
  is being performed by each TVA group at the distributors is duplicative in
  nature.

What the OIG Recommends

  We recommend TVA’s Director, Distributor Compliance:
  1. Include testing for other provisions in Section 5(b), paragraph 2 of the
     Power Contract in all assessments.
  2. Include testing to identify penalty exempt accounts in all assessments.
  3. When possible, select a sample containing items from across the
     population instead of from a subset of the population.
  4. Fully document sampling methodology in workpapers and report,
     including details on when replacement samples will be used and at
     what error rate a sample will be expanded.
  5. Review and update process(es) for ensuring all applicable issues are
     included in the report.
  6. Include recommendations that help improve distributors’ compliance
     with the Power Contract by detecting and/or preventing identified
     issues or errors from recurring in the future.
  7. Include testing for potentially misclassified residential customers in all
     assessments.
  8. Inform distributors of all issues identified during assessments.

TVA Management’s Comments

  TVA Management agreed with our recommendations and will be
  implementing changes to address all recommendations by November 30,
  2013.

Auditor’s Response

  The OIG agrees with the actions planned by TVA management in regards
  to all recommendations.

                                                                            Page ii

                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


BACKGROUND
The Tennessee Valley Authority (TVA) established a Distributor Compliance
department within the Compliance Office in the spring of 2011. Distributor
Compliance was charged with conducting assessments at all 155 distributors
during a recurring cycle (currently 4 years) from three regional offices strategically
located in Knoxville, Nashville, and Memphis, Tennessee. When Distributor
Compliance was created, the Compliance Office was positioned organizationally
in the Financial Services division. In the spring of 2012, TVA reorganized and
created a new division, Policy and Oversight. The Compliance Office was
renamed Compliance and Policy Governance and was moved under the Policy
and Oversight division reporting to the Senior Vice President (SVP) of Policy and
Oversight. At that time, the Retail Regulatory Affairs (RRA) group, which is
responsible for developing, interpreting, and implementing TVA’s retail regulatory
policy, was also moved under the Policy and Oversight division reporting to the
SVP of Policy and Oversight.

According to the Distributor Compliance Charter (COMP-SPP-03.1.01),
developed in December 2011, the purpose of Distributor Compliance is to drive
the proactive, robust, and consistent management of TVA’s regulation of the
distributors of TVA power. Distributor Compliance assists TVA management and
the TVA Board of Directors in determining whether distributor customers are in
compliance with the TVA Wholesale Power Contract and other regulatory policy
by conducting business in a manner that both promotes compliance and is
generally effective in preventing, detecting, and remediating compliance-related
violations. Distributor Compliance is also responsible for monitoring the
distributors’ follow-up on actionable recommendations to strengthen and improve
compliance with the TVA contracts and regulatory requirements.

The Distributor Compliance Charter describes the fundamental principles, roles,
and responsibilities of the department. Distributor Compliance personnel are
supposed to perform assessments according to the Compliance and Policy
Governance Professional Standards (COMP-SPP-03.1) and Operations Manual
(C&PG-OPP-03). Both the Operations Manual and the Professional Standards
adopted the Institute of Internal Auditors (IIA) Standards in June and
October 2012, respectively. The Timeline on the following page shows the
changes associated with the Distributor Compliance department.




Audit 2013-14966                                                                Page 1

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report




                                                                        Timeline

The Distributor Compliance assessment program is standardized, and the same
review steps are typically performed at each distributor to accomplish the
assessment objectives. According to Distributor Compliance personnel, the
original assessment program was used with minor changes by all three regional
Distributor Compliance offices during the first year that assessments were
performed (September 2011 through August 2012). Typical modifications were
to change the program to fit the specific distributor more appropriately (e.g.,
applicable dates of the Wholesale Power Contract, scope of assessment, and
sample size[s]). In September 2012, there was a substantial revision to the work
steps in the assessment program.

During this first 4-year cycle, which will end in 2015, Distributor Compliance plans
to perform an assessment (or follow-up on prior audits performed by the Office of
the Inspector General [OIG]) on all 155 distributors. After the first cycle is
completed, Distributor Compliance management plans to use a risk-based
analysis methodology to select distributors for assessments.

OBJECTIVES, SCOPE, AND METHODOLOGY
We performed an oversight audit of the assessments completed by Distributor
Compliance through December 31, 2012, to determine if:

1. The assessments were adequately planned and performed to verify
   distributors’ compliance with key provisions of the Power Contract.

2. The assessments were performed in accordance with the Distributor
   Compliance Charter and applicable policies.
Audit 2013-14966                                                               Page 2

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


3. There was adequate segregation between the groups charged with
   developing, interpreting, and implementing TVA’s retail regulatory policy
   (RRA) and assessing distributor compliance with TVA’s regulatory policies
   and procedures (Distributor Compliance).

Our scope included 32 assessments completed by Distributor Compliance
through December 31, 2012. Distributor Compliance used its “original”
assessment program for 31 of these assessments, and its “revised” program for
1 assessment. We reviewed a sample of 6 assessments, consisting of 5 that
used the “original” assessment program, which were randomly selected, and the
1 that used the “revised” assessment program. A complete discussion of our
audit objectives, scope, and methodology are included in the Appendix.

FINDINGS
Our audit of the Distributor Compliance assessments issued through
December 31, 2012, found several positive attributes in Distributor Compliance’s
planning and performance of assessments. However, we also identified areas
where changes were needed to improve (1) planning and performance and
(2) compliance with the Distributor Compliance Charter and other applicable
professional standards and policies regarding the assessment reports. In
addition, we determined there is adequate segregation between the groups
charged with developing, interpreting, and implementing TVA’s retail regulatory
policy (RRA) and assessing distributor compliance with TVA’s regulatory policies
and procedures (Distributor Compliance). The following provides a detailed
discussion of our findings.

POSITIVE ATTRIBUTES OF DISTRIBUTOR COMPLIANCE
ASSESSMENTS

During our oversight audit of Distributor Compliance, we noted several positive
attributes in Distributor Compliance’s planning and performance of assessments
including:

   The identification and testing of appropriate contract provisions.
   The adequacy of testing to provide reasonable assurance assessment
    objectives were met in multiple work steps.
   The incorporation of testing related to bad debt write-off and disconnection/
    reconnection practices.
   A “value-add” step to review penalty exempt accounts that was performed
    during one assessment.

In addition, Distributor Compliance has staffed their department with personnel
who have varied professional experiences that provide a good breadth of
knowledge to the department.
Audit 2013-14966                                                               Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


Appropriate Contract Provisions Used as Criteria for Testing
Although the assessment programs used by Distributor Compliance do not cite
specific Power Contract sections, based on the criteria stated in the reports, the
provisions of the Wholesale Power Contract that Distributor Compliance tested
against were primarily:

1. Section 4 – Wholesale Rate (distributor will pay in accordance with the
   wholesale power schedule with customers correctly classified as residential or
   one of the various commercial or manufacturing classifications).

2. Sections 5(a) and 5(b), paragraph 1 – Resale Rates (non-discrimination in
   providing power so all accounts in the same classification pay the same rate).

3. Section 6 – Use of Revenues (electric revenues are used only for approved
   purposes).

4. Terms and Conditions Sections 1(a), 1(b), and 1(c) (financial and accounting
   policies).

We agree including these contract provisions as criteria for testing compliance is
appropriate.

Testing Provided Assurance Objectives Were Met in Multiple Work Steps
We found adequate testing was performed in the sampled assessments to obtain
reasonable assurance distributors were using revenue from electric sales in
compliance with the Power Contract and the TVA regulatory policy. Additionally,
we noted steps for testing commercial accounts (correct classification and the
need for specific metering based on energy usage) were added to the “revised”
assessment program. We agree Distributor Compliance should be performing
these tests.

Bad Debt Write-Off and Disconnection/Reconnection Testing
In all 6 of the assessments we sampled, Distributor Compliance included testing
of bad debt write-offs and disconnection/reconnection of electric service to
determine whether or not customers were receiving a preferential rate indirectly.
These areas relate to one of the four Service Practice Standards adopted by TVA
in 1979 under the authority of the Public Utility Regulatory Policies Act,
specifically, the “Procedures for Termination of Electric Service.”




Audit 2013-14966                                                               Page 4

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                    Audit Report


According to Distributor Compliance personnel, they included additional work
steps for testing late fees in the January 2013 revision of the Distributor
Compliance assessment program (subsequent to our audit scope). Late fee
provisions are part of another one of the four Service Practice Standards adopted
by TVA, “Billing,” which is included in the Power Contract under Section 5(b),
paragraph 2, “Resale Rates.”1 We consider testing for these areas to be
appropriate and beneficial but also suggest Distributor Compliance include
testing for the other Section 5(b), paragraph 2 contract provision requirements
regarding when a payment may be considered late.

Penalty Exempt “Value-Add” Step
In 1 of the 6 sampled assessments a “value-add” step was performed. An
assessor was aware the distributor’s billing agency could provide a report
identifying penalty exempt accounts. Using the report, distributor personnel
identified and corrected 2 accounts and requested the billing agency include the
report on their Web portal so all distributors using the billing agency could
generate and utilize the report. We consider this testing to be appropriate and
beneficial in helping to ensure accounts are billed accurately. Distributor
Compliance should consider including this work step, or work step(s) that
accomplish the same objective, in the assessment program for all distributors
that have customers with penalty exempt accounts.

Work Experience of Personnel
Distributor Compliance has hired individuals who worked at various distributors,
such as an electrical engineer, attorneys, and internal and external auditors,
among other professionals to perform the distributor compliance assessments.
This results in a good breadth of knowledge for the department to draw upon.

AREAS NEEDING IMPROVEMENT
Based on our review of a sample of the 32 assessments issued through
December 31, 2012, we identified several areas where improvements could be
made in Distributor Compliance’s processes for (1) planning and performing
assessments and (2) reporting the results.

    Scope statements did not always reflect the actual information reviewed in
     assessments.
    Documentation of sampling methodology was inadequate.
    Sampling methodologies could be modified to provide more assurance
     assessment objectives are met.

1
    [Distributor] shall designate in its standard policy periods of not less than (1) 15 days, for residential
    customers, and (2) 10 days, for all other customers, after date of the bill during which periods the bill is
    payable as computed by application of the charges for service under the appropriate resale schedule,
    and shall further designate in said policy the percentage or percentages, if any, not to exceed 5 percent
    of the bill, computed as above provided, which will be added to the bill as additional charges for payment
    after the periods so designated.
Audit 2013-14966                                                                                         Page 5

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


   Some issues were not formally reported and tracked.
   Recommendations did not always help detect and/or prevent identified issues
    from recurring.
   Testing for misclassified residential accounts is not currently being performed.
   Distributors are not made aware of all issues identified during assessments.

Scope Statements Do Not Always Reflect Actual Information Reviewed in
Assessments
According to the programs and reports we sampled, the scope of the
assessments was the detailed wholesale and retail data, as well as related
documentation, for one full distributor fiscal year (FY) (July through June) for 5 of
the 6 assessments and 9 months (July 2011 through March 2012) for the
remaining assessment. However, on many of the steps performed by Distributor
Compliance, the sample for testing was pulled from a small subset of the
population and Distributor Compliance’s workpapers did not indicate if the subset
selected was representative of the population.

   The 5 assessments conducted using the “original” assessment program had a
    total of 62 work steps that utilized sampling. In 36 of those work steps
    (58 percent), a subset of information was used as the population (typically
    1 month) from which a sample was selected for testing, rather than using
    data/information from the entire FY as the population.
   The “revised” assessment program had a total of 13 work steps that utilized
    sampling. In 6 of those work steps (46 percent), a subset of information was
    used as the population (typically 1 month) from which a sample was selected
    for testing rather than using data/information from the entire FY as the
    population.

Using small subsets of populations to select samples may provide inadequate
coverage for ensuring distributor’s compliance with the TVA Wholesale Power
Contract. Accordingly, Distributor Compliance should use the full population for
sampling when possible. If subsets of populations are used for sampling,
Distributor Compliance should ensure (1) the subset is representative of the
population, and (2) reported scope statements accurately reflect the population
samples are pulled from.

Inadequate Documentation of Sampling Methodology
The assessment reports did not provide detailed explanations of the sampling
methodology actually used during testing. Distributor Compliance did not
document its tolerable error or an error rate at which they would expand the
sample size of tests in its reports or workpapers. No samples were expanded
when higher error rates were found in the 6 sampled assessments. For example,
all 6 assessments contained testing related to adjustments. The testing results in
the workpapers of 1 assessment indicated there were problems with 9 of the
20 adjustments in the sample (an error rate of 45 percent), but Distributor
Compliance did not expand the sample size.
Audit 2013-14966                                                                Page 6

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


Sampling Methodology Could be Modified to Provide More Assurance
Assessment Objectives Are Met
In addition to the lack of documentation of the sampling methodology used, we
noted instances where the sampling methodology that was followed could be
modified to provide more assurance assessment objectives were met. For
example, all 6 of the sampled assessment programs included:

   Testing for adjustments. However, 1 of the 6 assessments passed on testing
    because the sample month only contained 1 small adjustment. While we
    believe the testing sample should be selected from the whole population
    rather than 1 month, if Distributor Compliance continues to select its samples
    from a restricted population, a replacement sample month should be chosen
    so the testing could be performed.
   Testing of a random sample to verify distributor expenses/payments were for
    allowed uses of electric system revenues. Greater assurance would have
    been obtained if all disbursements for the year had been analyzed for
    potentially inappropriate vendors/payment amounts, and a judgmental sample
    of disbursements had been selected for testing.
   Testing to verify the accuracy of the retail rates for only 1 month. After the
    April 2011 wholesale rate change, each rate classification (i.e., residential,
    commercial, or manufacturing) has different prices for summer, winter, and
    transitional months. Therefore, testing of only 1 month during one of the rate
    periods provides limited assurance of the accuracy of retail rates during the
    remainder of the audit period.

Issues Were Not Always Reported Appropriately
According to Distributor Compliance management, an “Issue” should be created in
Distributor Compliance’s automated system describing an identified error/problem,
and an “Issue” may or may not have a corresponding “Action Plan.” In addition to
listing the issue, an “Action Plan” typically includes a recommendation, expected
completion date, management’s response, and the status (e.g., open or closed),
which allows tracking of management’s corrective actions.

We found the existence of an “Action Plan” in Distributor Compliance’s automated
system does not always result in a corresponding “Action Item” (recommendation)
in the assessment report, especially if the distributor corrected the issue during
the assessment. In the 6 assessments sampled for review, Distributor
Compliance identified and recorded 47 issues in its automated system.
Specifically, we found:

   Only 37 of the 47 issues were included in the final assessment reports:
     16 had an “Action Item” in the report.
     21 were corrected during fieldwork and/or were reported as “no action
       necessary.”


Audit 2013-14966                                                              Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


    2 of the 47 issues were included in an “Other Considerations” document2 as
     an attachment to the report, and therefore, did not have an “Action Item” even
     though both indicated existing processes for entering rates needed
     improvement. Both of these issues should have had a related “Action Item”
     reported to the distributor and an “Action Plan” in Distributor Compliance’s
     automated system for distributor action:
      One distributor’s “Power Cost Adjustment” for June 2011 was
        miscalculated by an immaterial amount.
      The excess demand rate per a “Time of Day” manufacturing rate schedule
        was loaded incorrectly in the billing system during June 2011.
    8 of the 47 issues were not included in the final assessment report. At a
     minimum, 3 of these issues should have been officially reported and a
     recommendation made; however, none had an “Action Plan” in the system,
     and no “Action Item” was communicated to the distributor or TVA. The issues
     that should have been reported were:
      Distributor Compliance found the 12 month high field on a billing statement
        was incorrect and determined the distributor was billing some customers
        outside the billing system. This was considered a data entry error by
        Distributor Compliance.
      Distributor Compliance found a distributor was transferring some
        uncollectable amounts from one account to another account using the
        energy field and determined this practice was skewing the distributor’s
        revenue. During fieldwork, Distributor Compliance suggested the
        distributor change how uncollectable amounts were transferred, and the
        distributor implemented the suggestion.
      Distributor Compliance provided one distributor with a penalty exemption
        report. The distributor determined there were 2 accounts flagged
        incorrectly and corrected the accounts during the assessment.

Report Recommendations Need to Improve Distributor Compliance
The Distributor Compliance Charter, Professional Standards, and Operations
Manual state that part of Distributor Compliance’s responsibility is to continually
help improve distributors’ compliance with the Wholesale Power Contract by
preventing, detecting, mitigating, and remediating any compliance issues.
Generally, we found Distributor Compliance complied with the Distributor
Compliance Charter, Professional Standards, and Operations Manual while
performing the assessments; however, the reporting of the assessment results
did not always comply with the criteria mentioned above.

Typically, the reports we sampled either (1) stated the issues that had been found
were corrected during the assessment, so no further action is recommended/
required, or (2) recommended (per the action item) the distributor correct the
specific issues found during the assessment rather than implementing a process
2
    An “Other Considerations” document was used to report oversight or regulatory issues to TVA
    management.
Audit 2013-14966                                                                                  Page 8

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                              Audit Report


or control to help reduce the possibility the error or issue will occur in the future.
The following are examples of issues and recommended action items in the
reports that would not help prevent the issue from recurring in the future:

   Distributor Compliance identified misclassified customers within their limited
    sample and recommended the distributor reclassify those specific accounts.
    However, no recommendations were made to (1) determine if other errors
    outside the sample occurred or (2) improve controls over the classification of
    customers.
   Distributor Compliance found contract demand in the billing system did not
    agree with the contract demand in the contract and recommended the
    distributor update the billing system information with the appropriate contract
    demand. However, no recommendations were made to improve controls over
    the accuracy of contract demand in the system.
   Distributor Compliance found a customer re-established service under a new
    name after being written off as bad debt and the distributor subsequently
    transferred the old debt to the new account during the assessment. However,
    no process improvement recommendations were made regarding establishing
    customer accounts.

According to the Manager of Distributor Compliance, if assessors determined an
error or issue occurred because an existing policy was not followed, Distributor
Compliance would not typically recommend an action plan. He stated having an
action plan recommending the distributor follow an existing policy adds little value
because Distributor Compliance must track and record distributors’ remediating
action(s), and it would be difficult to put a specific date as to when such an action
plan would be completed. However, Distributor Compliance’s workpapers did not
indicate whether the above examples were the result of not following an existing
policy or if there was no policy currently in place.

To improve compliance with the Power Contract, Distributor Compliance should
make recommendations to improve controls over the processes that allowed
identified errors, not just recommend that identified errors be corrected. Because
this reporting aspect is so integral to Distributor Compliance’s mission to improve
distributor compliance with the Power Contract, we consider this a significant
issue.

Testing for Misclassified Residential Accounts Not Currently Being
Performed
Testing for residential misclassifications should be performed to provide
assurance no discriminatory rates exist between residential customers. Testing
to identify misclassified residential customer accounts in the “original”
assessment program was not always performed, and it was not included in the
“revised” assessment program. The testing performed per the “original” program
would rarely identify misclassified residential accounts because a small sample
(i.e., 20 or 25) was randomly selected from a 1-month subset of the population of
residential accounts.
Audit 2013-14966                                                                  Page 9

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


Reasonable assurance that discrimination is not occurring could be obtained by
identifying accounts that appear to be commercial based on name (e.g., “&,”
“Company,” “Funeral,” “LLC,” “Inc.,” etc.) and then selecting a sample from those
questionable accounts. Verifying residential customers are correctly classified is
ultimately beneficial to TVA, because only 1 hydro credit is allowed for each
primary residence. Therefore, accounts for non-primary residences (i.e., pool
houses, barns, gates, small businesses, etc.) are considered small commercial
and are not eligible to receive a hydro credit.

Distributors Not Made Aware of All Issues Identified During Assessments
The “Other Considerations” document used by Distributor Compliance to report
issues to TVA management was included as an attachment in 1 of the 6 sampled
assessment reports. However, according to Distributor Compliance
management, the current practice is to provide the information to TVA
management but not to distributors. RRA indicated in some instances
distributors were confused when RRA contacted them to address items included
in the “Other Considerations” document, especially in instances where the
Distributor Compliance assessment report stated there were no issues and the
distributor was in compliance.

SEGREGATION BETWEEN GROUPS IS ADEQUATE
As noted in the Background section of this report, both Distributor Compliance
and RRA are currently in TVA’s Policy and Oversight division. In order to
determine if there was adequate segregation between Distributor Compliance
and RRA, we met with the Director, RRA, and Manager, Distributor Analysis,
RRA, to discuss the work they perform. Although we determined there was
adequate segregation between Distributor Compliance and RRA, we also noted
certain work being performed at the distributors by each group is duplicative in
nature. We plan to issue a separate memo to the SVP of Policy and Oversight
regarding this observation.

RECOMMENDATIONS
We recommend TVA’s Director, Distributor Compliance:

1. Include testing for other provisions in Section 5(b), paragraph 2 of the Power
   Contract in all assessments.

    TVA Management’s Comments – Distributor Compliance agreed with the
    recommendation and will add a verification that the number of days from the
    bill date to payable date is in accordance with Section 5(b), paragraph 2 of
    the Power Contract. The new test step will be implemented by November 30,
    2013. See Appendix B for Distributor Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.

Audit 2013-14966                                                            Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


2. Include testing to identify penalty exempt accounts in all assessments.

    TVA Management’s Comments – Distributor Compliance agreed adding the
    recommended testing made sense and will incorporate a test step that
    identifies penalty exempt accounts if the third party billing system has the
    functionality. The new test step will be implemented by November 30, 2013.
    See Appendix B for Distributor Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.

3. When possible, select a sample containing items from across the population
   instead of from a subset of the population.

    TVA Management’s Comments – Distributor Compliance stated when there
    is a recurring billing cycle with less than 1 percent deviation in its population
    from month to month, the sample risk of choosing a representative sample is
    de minimis. However, Distributor Compliance agreed with the
    recommendation that expanding their sample to multiple billing periods within
    a rolling 12-month period would give them better assurance for detecting both
    monthly and seasonal variable billing attributes. As a result, while
    considering the time and cost of examination, Distributor Compliance will
    implement testing a recurring cycle from the summer, winter, and transition
    periods by November 30, 2013. See Appendix B for Distributor Compliance’s
    complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.

4. Fully document sampling methodology in workpapers and report, including
   details on when replacement samples will be used and at what error rate a
   sample will be expanded.

    TVA Management’s Comments – Distributor Compliance stated their
    sampling methodology is outlined in their assessment program, and they will
    include their replacement sample methodology in their sampling methodology
    as an Appendix in their reports. This will be implemented by November 30,
    2013. See Appendix B for Distributor Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.

5. Review and update process(es) for ensuring all applicable issues are
   included in the report.

    TVA Management’s Comments – Distributor Compliance stated prior to the
    issuance of the OIG draft report, a quality control function to complement their
    normal reporting fact check process had been implemented. In addition, a
    step will be added to their fact check process to ensure all issues have been
    captured appropriately. This will be implemented by November 30, 2013. See
    Appendix B for Distributor Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.
Audit 2013-14966                                                              Page 11

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


6. Include recommendations that help improve distributors’ compliance with the
   Power Contract by detecting and/or preventing the identified issues or errors
   from recurring in the future.

    TVA Management’s Comments – Distributor Compliance stated when
    possible, they will identify potential root cause activity and make
    recommendations to help prevent or detect errors from occurring in the future.
    This will be implemented by November 30, 2013. See Appendix B for
    Distributor Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.

7. Include testing for potentially misclassified residential customers in all
   assessments.

    TVA Management’s Comments – Distributor Compliance stated based on
    the recommendation, they will add a test identifying potentially misclassified
    residential customers and report those to the Distributor. This will be
    implemented by November 30, 2013. See Appendix B for Distributor
    Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.

8. Inform distributors of all issues identified during assessments.

    TVA Management’s Comments – Distributor Compliance stated they have
    agreed-upon criteria established based on contract provisions. Observations
    made outside the agreed-upon criteria are noted in the workpapers, entered
    into the automated audit software, and given one of several dispositions, not
    all of which are intended to be in the report as defined by the criteria. Based
    on the recommendation, Distributor Compliance will add the observations as
    an Appendix to the final reports to distributors for informative purposes. This
    will be implemented by September 30, 2013. See Appendix B for Distributor
    Compliance’s complete response.

    Auditor’s Response – The OIG agrees with management’s planned actions.




Audit 2013-14966                                                                Page 12

                                  TVA RESTRICTED INFORMATION
                                                                      APPENDIX A
                                                                       Page 1 of 2

OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our annual audit plan, we scheduled an oversight audit of the
distributor assessments performed by Tennessee Valley Authority’s (TVA)
Distributor Compliance group. Our specific audit objectives were to determine if:

1. The Distributor Compliance group assessments of distributors were
   adequately planned and performed to verify distributors’ compliance with key
   provisions of the Power Contract. Specifically:
       Did the assessments determine if distributors’ retail rates were
        appropriately approved.
       Did the assessments review the appropriate contract provisions.
       Was information reviewed sufficient and appropriate to support the
        findings and conclusions.
       Were the identified issues reported in the appropriate manner to the
        appropriate individuals/groups.
       Were the identified issues recorded in a manner that allows tracking of
        managements’ actions to address the issues.

2. The Distributor Compliance group assessments of distributors comply with
   the Distributor Compliance group Charter and applicable policies.

3. There is adequate segregation between the groups charged with developing,
   interpreting, and implementing TVA’s retail regulatory policy (Retail
   Regulatory Affairs) and assessing distributor compliance with TVA’s
   regulatory policies and procedures (Distributor Compliance).

Our objective was not to assess TVA’s system of internal controls related to
Distributor Compliance. Therefore, controls associated with Distributor
Compliance were not tested as part of this audit. To achieve our objectives, we:

   Reviewed a sample of 6 Distributor Compliance performed assessments to
    determine compliance with stated criteria as well as adequacy of performing
    the assessments. We judgmentally chose to sample 1 assessment because
    it used the newer version of the Distributor Compliance assessment program.
    We then stratified the remaining assessments by the region they were
    performed in and chose a random sample of 5 additional assessments of the
    31 assessments performed during our audit period using a random number
    generator. We chose this method of sampling due to the small size of the
    population. Because we included other sample items with our random
    selections, the results cannot be projected to the population.
   Reviewed organizational charts and interviewed personnel to determine if
    there was adequate segregation between the groups that develop, interpret,
    and implement TVA’s retail regulatory policy versus those that assess
    distributors’ compliance.
                            TVA RESTRICTED INFORMATION
                                                                      APPENDIX A
                                                                       Page 2 of 2

   Obtained the first and last assessment work programs applicable to our audit
    period to determine what steps were added or removed and if the action was
    appropriate.
   Reviewed all Distributor Compliance assessment reports performed during
    our audit period to gain an understanding of the consistency as well as the
    changes that occurred to the reports.
   Reviewed all reports issued during our audit period as well as “Issues”
    identified to gain an understanding of the clarity and consistency of the
    reporting of the “Issues.”

When evaluating the results of our audit work, we used qualitative factors when
considering the significance of an item. The qualitative factors to be considered
in determining an item’s significance were:

   Error(s) in calculations or logic used in multiple assessments, which may or
    may not result in inaccuracy of information reported on multiple assessments.
   Reporting only the problem or issue noted and not making a recommendation
    that would prevent the issue or error from recurring, and therefore, help
    improve compliance with the Power Contract.
   Reporting only the problem or issue noted in the sample tested and not
    assessing the effect of the issue on the associated population (i.e., treating
    the issue as an isolated instance with no adverse effects if corrected).
   Reporting on the problem or issue noted and not assessing whether it is an
    isolated problem at one distributor or an issue that should be addressed and
    corrected for multiple distributors (oversight issue).

The scope of our audit was all distributor assessments completed by Distributor
Compliance between October 1, 2011, and December 31, 2012, a total of
32 assessments. Distributor Compliance also performed “follow-up” reviews on
9 Office of the Inspector General distributor audits during this time; however,
these reviews were not included in our population of 32 assessments. Our
fieldwork was conducted between February 2013 and July 2013.

This performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                            TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 3 of 3




TVA RESTRICTED INFORMATION
